IN THE
SUPREME COURT OF THE UNITED STATES
)
EAGLE TRUST FUND, JOHN F. SCHLAFLY & EAGLE ) No. __-_____
FORUM EDUCATION & LEGAL DEFENSE FUND,
)
Petitioners,
) On Petition for Writ of
) Certiorari to the U.S. Court of
v.
) Appeals for the District of
) Columbia Circuit
UNITED STATES POSTAL SERVICE & LOUIS DEJOY, )
POSTMASTER GENERAL, IN HIS OFFICIAL CAPACITY,
)
Respondent.
)
)
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the Petition for Writ
of Certiorari filed on behalf of Eagle Trust Fund, John F. Schlafly, and Eagle Forum Education
& Legal Defense Fund in the above-captioned matter contains 7,759 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 25, 2021.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: 202-355-9452
Fax: 202-318-2254
Email: lj@larryjoseph.com
Counsel of Record for Petitioners

